-
I..,                                      ---
                       CLOSEOUT FOR M93040021

     This case was brought to OIG on April 5, 1993 by Dr.
          an NSF program officer in the
The allegation was that a proposal submitted to NSF by Dr.
           (Subject #1) of U n i v e r s i t y and Dr.-
                                                           program.

         (the collaborator) of u n i v e r s i t y sought funding
for work that had already been performed. Attached are the OIG
investigation report, including its appendices; the memorandum from
the Deputy Director of NSF to the Inspector General announcing her
decision in this case; and the letter of reprimand from the Deputy
Director to Subject #l.      These documents explain the actions
subsequently taken by OIG and NSF in this case.


cc: Deputy AIG-0, IG




                            page 1 of 1
                   -
       REPORT OF INVESTIGATION INTO AN ALLEGATION OF MISCONDUCT IN
                         SCIENCE AND ENGINEERING




                 -
                                  SUMMARY
          The Office of Inspector General (OIG) has determined that-
                          (the subject) of                    University
m   -                    NSF by misrepresenting research he had already
     performed as work he proposed to do. OIG has also determined that
     the subject directed that the name of his collaborator, 0
               of          University (the collaborator), be signed on
     the certification page without the collaboratorts knowledge or
     consent. These conclusions are based on an investigation performed
     by ( u n i v e r s i t y . OIG recommends that NSF find that
     the subject committed misconduct and take the following actions as
     a final disposition in this case. The subject should be told that
     NSF has made a finding of misconduct and should receive a letter of
     reprimand from the NSF Office of the Director. Until January,
     1997, the subject should be required, when he submits research
     proposals to NSF, to certify to OIG that the proposals accurately
     state what parts of the research agenda have and have not already
     been performed. Until January, 1997, the subject's institution
     should be required, when the subject submits research proposals to
     NSF, to certify that the proposals accurately state what parts of
     the research agenda have and have not already been performed.
                              OIG' S INOUIRY




                                                         -
         OIG received an allegation that in a proposal to NSF the
    subject misrepresented research already performed as work to be
    done under the NSF award that the subject sought. The subject's



    developing     a- a             model to explain
                    Most of the budgeted direct costs were for a summer
    -undergraduate             research assistant for the subject. NSF
    declined the proposal on June 28, 1993. The panel summary (Form 7 )
    indicated that the panel deemed NSF support to be flunnecessary'l
    because several reviewers Ifhad seen the results of the research
    reported" at a professional meeting and one had seen a journal
    submission that reported "the project's results."'

          he program officer appropriately considered the information
    indicating that the work had already been completed to be relevant
    to his decision about whether the proposal was worthy of NSF
    support. This information bears directlyPon the intrinsic merit of
    the proposed work, which is one of NSF1s criteria for making
    awards. In making his recommendation to decline the proposal, the
                               page 1 of 10
     When the program first received reviews alleging that the
proposed work had already been conducted, the program officer
informed O I G about the situation. O I G wrote to thesubject and his
collaborator asking for their responses to this allegation. OIG
also requested copies of papers having the saqe title as the NSF
proposal that the two researchers had allegedly presented at the
h ~ s s o c i a t i o Meetings              n      in December, 1992,
and submitted to the                                m a t about the
same time.
     In his reply to OIG1s letter (Appendix 2 ) , the subject stated
that "the work specified in the proposal per se had already been
completed." He characterized his "judgment and behavior while
writing" his proposal       as    "unacceptable" and     took   full
responsibility for the content of the proposal, explaining that the
collaborator had not seen the proposal before it was submitted. He
attributed his behavior to haste and laziness. He supplied copies
of the conference paper (Appendix 3 ) and journal submission
(Appendix 4 ) , thereby helping O I G document that the research he
proposed had in fact already been completed.
     The subject also volunteered the fact that he had directed
that his collaborator's name be signed to the certification page of
the proposal without the collaborator's knowledge or consent. The
proposal itself contained a letter from the collaborator stating
that he would llcollaborate:with [the subject] on the projectu but
was not seeking NSF funding. Although the subject did not recall
exactly why he included the collaboratorls false signature, he
speculated that he might have thought it was necessary because the
collaborator had played a major role in writing the paper that was
the basis for the proposal.        The false signature does not
materially misrepresent the actual role that the collaborator
expected to play on the project, but it does misrepresent the
collaborator's knowledge of the text of the proposal. We referred
this matter to the U.S. Department of Justice, which declined to
prosecute for forgery.
     In the collaborator's reply to O I G (Appendix 5 ) , he explained
that he had never seen the proposal, had not signed the
certification page, and did not consider himself responsible for
the proposal.    He confirmed that the research was an ongoing
collaborative enterprise and that his letter accompanying the
proposal accurately reflected his own involvement in the project.
The collaborator expressed regret that "as [the subjectl's former
thesis adviser" he did not "exercise more oversight into his
proposal-writing." He attributed this to his high regard for the

program officer appropriately ignored the issue of whether the
subject and the collaborator had committed misconduct. According
to NSF policy, unproven allegations of misconduct may not influence
program decisions.                     t




                            page 2 of 10
subject's integrity and character. The collaborator characterized
Itthisinstance of bad judgment1tby the subject as Itanisolated one
for which he is genuinely remorseful."
     Both the subject and the collaborator provided evidence that
the subject's proposal was part of a continuing program of
research. They asserted that, had N S F made an award, it would have
been used to support the next steps in this research program. The
collaborator also explained that they had considered their model
"preliminaryI1 and expected that the model would require ttmajor
changes in the analysisttafter they received comments from the
journal referees. He stated that their paper's "essentially as-is
acceptancettfrom the journal was a It surprise."
                 THE UNIVERSITY'S   INVESTIGATION

     OIG decided that there was sufficient substance to the
allegations to warrant an investigation. We notified the subject's
university, which asked that we delay our investigation while they
undertook their own. On June 15, 1994, the university's Provost
transmitted the investigating committee's report and a cover letter
(Appendix 6 ) to OIG.
     The committee reviewed the documentary record of OIG's inquiry
and examined evidence from the subject's files relating to his
research program.    The committee interviewed the subject, the
collaborator, the subject s dean and department chair, and clerical
staff involved in preparing the N S F proposal.
     With regard to the allegation that the subject sought funding
from N S F by misrepresenting research he had already performed as
work he proposed to do (Allegation #I), the committee concluded
that the proposal was "misleading." It stated that the subject
should have cited the paper that he and the collaborator had
jointly written and should have described their plans for future
research.     It found that the proposal "nowhere.. . discuss Led1
research in progress or to be done in the future."
     The committee cited various evidence indicating that the
subject's project was ongoing and that he and the collaborator had
worked together closely on it.       The committee also received
testimony about the subject's integrity and dedication to duty. It
found that the proposal was assembled in haste to meet a submission
deadline. The committee concluded that "though the idea was not
conveyed, the purpose was to obtain funding for work to be done in
the.future." It found that there was no misconduct because there
was "no intention to deceive."
     With regard to the allegation the subject directed that the
                           page 3 of 10
name of his collaborator be signed on the certification page
without the collaborator's knowledge or consent (Allegation # 2 ) ,
the committee found that the circumstances surrounding the
inclusion of the false signature were unclear. It concluded that
the secretary in the subject's department signed the collaboratorJs
name and that the preponderance of the evidence indicated that the
subject directed her to do so. It received evidence suggesting
that the administrative assistant in the subject's department, who
routinely assists faculty members in the administrative aspects of
proposal preparation, had suggested that the collaborator's role in
the project made it appropriate to include him as a co-principal
investigator and to obtain his signature on the certification page.
The committee was unable to determine whether the collaborator had
agreed to be a co-principal investigator, as neither the
collaborator nor the subject had a highly specific recollection of
their conversations relating to this issue. But the committee
found that the collaborator had agreed to work.with the subject on
the project and had not given permission to have his name signed to
the certification page. The committee concluded that the facts
warranted a finding of misconduct because "it was not proper to
sign [the collaborator's] name without indicating clearly that it
was not his own signature."
     The Provost, in transmitting the investigation report,
summarized the committee's recommended actions.    The following
quotation from the Provost's letter includes relevant quotations
from the report:
     By way of censure, the Committee recommends that the
     University administration (presumably, the Department
     Head, Dean, and Provost) I t . . . discuss with [the subject]
     the seriousness of the poorly prepared proposal and the
     improper signature." Further, referring to the improper
     signature, "... a stern warning must be issued that any
     future misconduct will have' serious consequences."
     Finally, " . . . [the subject's] next proposal must be
     carefully reviewed by the Head of the [subject's]
     Department."
The Provost expressed       his    intention   to   implement    these
recommendations.
                           OIG' S ANALYSIS
     For NSF to make a finding of misconduct, a preponderance of
the evidence must show that the subject committed culpable acts
with a culpable state of mind. OIG believes the preponderance of
the evidence indicates (1) that the subject committed the alleged
acts, and ( 2 ) that he did so with a culpable state of mind. OIG
                            page 4 of 10
further concludes (3) that the acts are misconduct under NSF1s
Regulation on Misconduct in Science .and ~ngineering. In this
section, we address these three issues for each allegation.
Allegation #1: Act
     OIG believes there is no doubt that the subject sought funding
from NSF by misrepresenting research he had already performed as
work he proposed to do. The subject admitted as much in his letter
to OIG (Appendix 2 ) . In response to OIG1s request to the Provost
for clarification of the university's findings, the Provost stated
that ttclearly,data collection and analysis described in the
proposal-had already been performed at the time it was submittedu
and that "the university has, indeed, concluded that the proposal
misrepresents past research as work proposed for the futureM (The
Provost's letter is in Appendix 7; OIG urges that the reader
examine this letter, which provides a clear and focussed account of
the university's judgment concerning this case).        No fact or
judgment in the investigating committee1s report in any way
contradicts these conclusions. Indeed, there is no evidence at all
to contradict these conclusions.
Allegation #1: State of Mind
     OIG believes that the subject performed these actions
knowingly and that the university committee was incorrect when it
claimed that the subject had no intent to deceive. The subject
obviously knew that he had already performed the work described in
his proposal. He knew that the proposal did not state that the
work had already been performed, accurately reflect his progress on
the research, or explain what work he in fact planned to undertake
under the award he hoped to receive.         When the investigating
committee stated that the subject It thought he would better impress
the proposal reviewers and enhance his chances for funding by
presenting a polished piece of writing," we believe that they
implicitly concluded that the subject sought to create a misleading
impression. In response to our request for clarification of the
university's findings, the Provost stated his conclusion that the
subject "intended for the proposal reviewer to believe that he was
proposing to do work that he had, in part, already completed." We
agree with the Provost's assessment.
     OIG interprets the committee's conclusion about intent as a
conclusion that the subject did not intend certain, extremely
serious, deceptions.   The evidence indicates that the subject
intended to use the NSF award he sought for research, and in that
sense did not intend to deceive NSF about his purpose in seeking
NSF funds.   It indicates that he intended to use the award to
support future work in the research program he described in the
                           page 5 of 10
proposal and not for work in some other, unrelated research
program. In that sense, he also did not intend to deceive NSF
about his general purpose in seeking funds. The evidence also
suggests that he expected that his completed paper, like most
papers submitted to the leading journals in his discipline, would
require substantial revisions before it could be published and that
he did not know, pending receipt of the referees1 comments, what
those revisions would entail.     To the extent that the subject
intended to use some portion of the award he sought to fund his
efforts to revise the paper, the proposal might be seen as not
intended to deceive NSF about the kinds of scientific results to be
obtained. However, the conclusion that the subject did not intend
certain very serious deceptions does not mean that he did not
intend to deceive at all.
     Although OIG concludes that the subject knowingly intended to
deceive NSF about whether he had already performed the work
described in his proposal, OIG does not believe that he did so
purposefully. The preponderance of the evidence indicates that the
subject did not plan his deception or take steps to maximize its
chances of success. Had he acted purposefully, he might have
delayed his journal submission and conference presentation a few
months until NSF reviewers had evaluated his proposal. He would at
least have given the proposal a different title from that of the
journal submission and conference presentation. Instead, he made
his research progress so well known that at least three referees
independently raised this issue.
Allegation #1:   is conduct
      NSF1s regulation on Misconduct in Science and Engineering
 defines misconduct (45 C.F.R. S689.1 (a)(1)) to include "serious
,deviation from accepted practices in proposing" research to NSF.
 OIG believes that the subject's action in misrepresenting past work
 as work proposed for future funding and seeking funding from NSF
 based on this misrepresentation is a serious deviation from
 accepted practices.     OIG believes that actions such as the
 subject's are considered serious deviations in the wider scientific
 community as well as at NSF. We believe that such actions, if
 tolerated, would subvert NSF1s proposal evaluation process. That
 process is predicated on the idea that in deciding on awards NSF
 judges proposed new work. NSF lists the "intrinsic merit of the
 researchn as one of its criteria for proposal evaluation. Neither
 reviewers nor NSF staff can assess intrinsic merit if the
 investigator misrepresents the work for which he or she seeks
 funding. If NSF wished to make award decisions based only on the
 competence or past performance of investigators, it would not ask
 for proposals that describe the work the investigator plans to
 undertake.
                              page 6 of 10
     The Provost's letter to O I G makes clear that the subject's
action is misconduct under NSF1s definition. In response to two
questions from O I G (indicated in italics below), he stated:
     I s i t t h e u n i v e r s i t y ' s v i e w t h a t a s c i e n t i s t who s u b m i t s a
     proposal t h a t a c c u r a t e l y r e f l e c t s the g e n e r a l program o f
     r e s e a r c h he i n t e n d s t o pursue b u t m i s r e p r e s e n t s t h e a c t u a l
     r e s e a r c h t o b e supported h a s n o t s e r i o u s l y d e v i a t e d from
     a c c e p t e d p r a c t i c e i n the s c i e n t i f i c communi t y a t [the
     u n i v e r s i t y ]?
     It is emphatically not acceptable at [the university] to
     engage in the practice suggested in this question. No one at
     this university-- neither the committee, nor I, nor anyone
     else whom I know--would condone the kind of misrepresentation
     that occurred in [the subject's] proposal. Such a practice
     certainly does deviate from accepted practice at [the
     university] . . . .
     I s i t the u n i v e r s i t y ' s v i e w t h a t a d e s c r i p t i o n o f r e l a t e d work
     t h a t h a s a l r e a d y b e e n performed, c a s t s o a s t o appear t o be
     work t h a t i s s t i l l t o be undertaken, i s a c c e p t a b l e f o r t h i s
     purpose?            I f you b e l i e v e i t i s n o t , do you b e l i e v e t h a t ,
     though u n a c c e p t a b l e , t h i s a1 t e r n a t i v e d o e s n o t s e r i o u s l y
     d e v i a t e from accepted p r a c t i c e i n t h e s c i e n t i f i c comrnuni t y a t
      [ t h e u n i v e r s i t y ]?
     No to both questions. [emphases in original]
Allegation #2: Act
     O I G believes that the preponderance of the evidence supports
the committee's conclusion that the subject arranged for the false
signature to be included in his proposal.
Allegation #2: State of Mind
     O I G concludes that the subject included the false signature
knowingly. He was aware that the signature was not that of his
collaborator when he submitted the proposal and aware that he did
not have the collaborator's permission to include 2t.
Allegation # 2 : Misconduct
     O I G agrees with the investigating committee that accepted
practice, when a collaborator cannot personally sign the
certification page of a proposal, is to obtain the collaborator's
permission to include a signature, sign in his stead, and add one's
initials after the signature to indicate that the collaborator
                                        page 7 of 10
i   himself has not signed.     OIG believes that including a false
    signature without indicating it to be false is a serious deviation
    from accepted practices and hence is misconduct under NSF1s
    definition. One index of the seriousness of a false signature is
I
    the fact that forgery violates the criminal law and is generally
    considered to be morally repugnant.
         The collaborator's signature on the certification page denotes
    his acceptance of responsibility for the content of the proposal
    and the conduct of the research.          In most respects, the
    collaborator had himself taken responsibility for the content of
    the proposal by submitting identical material for publication and
    by sending the subject a letter, suitable for inclusion into the
    proposal, in which he promised to collaborate on the research. In
    one important sense, however, the signature on the certification
    page is seriously misleading: it certifies that the collaborator
    is personally familiar with the text that is being submitted to NSF
    and has judged this material to be an appropriate research
    proposal.
    OIGfs Conclusion Regarding Misconduct in Science

         OIG concludes that a preponderance of the evidence supports
    the findings that the subject submitted a proposal to NSF that
    misrepresents research he had already performed as work to be done
    and sought funding from NSF based on this misrepresentation and
    that the subject directed that the name of his collaborator be
    signed on the certification page without the collaborator's
    knowledge or consent. OIG concludes that the subject committed
    misconduct as defined in NSF1s Regulation on Misconduct in Science
    and Engineering and recommends that NSF make a finding to that
    effect.
                      OIG'S   RECOMMENDED DISPOSITION

         Under § 689.2 (b) of NSF1s misconduct in science and
    engineering regulation, " [i]n deciding what actions are appropriate
    when misconduct is found, NSF officials should consider: (1) How
    serious the misconduct was; (2) Whether it was deliberate or merely
    careless; (3) Whether it was an isolated event or part of a
    pattern; ( 4 ) Whether it is relevant only to certain funding
    requests or awards involving an institution or individual found
    guilty of misc~nduct.~
         We believe that a finding of misconduct regarding allegation
    #1 could, under other circumstances, be extremely serious and
    justify debarment. To condone the subject's action would be to
    condone a practice that subverts a major premise of NSF1s proposal
    review process - - the idea that we fund proposed work.         We
                                page 8 of 10
understand that scientists sometimes exaggerate how definitive
their .dataare when they submit papers to journals and exaggerate
how preliminary their ideas or data are when they submit research
proposals. The subject's action is fundamentally different from
such efforts to Itshadenthe truth. It is a clear, unambiguous
misrepresentation.
     We believe, however, that several factors substantially
                            ,




mitigate the seriousness of the subject's action in this case:
          The difference between the research that the subject
          intended for NSF to support and the research he proposed
          to NSF is not great. It is probably smaller than the
          difference between proposed and actual work for many of
          NSF's funded proposals, including many in which neither
          the investigator nor NSF staff believe there has been a
          change in the scope of the research. We believe this
          would have been a far more serious transgression if the
          subject had not intended the award to support research
          that was very similar to what he proposed.
          The subject is a young scientist who received his Ph.D.
          less than a year before he submitted his proposal. This
          was his first proposal for external funding. Both his
          dissertation advisor and his university believe that he
          needed more instruction in proper proposal preparation
          and that they were negligent in not providing it. We
          believe, as do the investigating committee and the
          Provost at his~university,that at the time he acted the
          subject Itdid not associate with this deception the
          gravity that most others would, particularly experienced
          researchersl1 (Provost's letter of clarification to OIG) .
          We believe that this would have been a far more serious
          transgression if the subject had been a more experienced
          scientist well schooled in the norms of the scientific
          community.
     3.   The subject took full responsibility for his actions
          immediately upon hearing from OIG, cooperated fully in
          the inquiry and investigation, and has expressed sincere
          regret. There is much testimony that he is a person of
          good character and has learned from his mistake.
    4.    There is no evidence that the subject's action was part
          of a purposeful, coordinated deception. He publicized
          his research results both by presenting them at a
          conference and by submitting them to a journal.
          Predictably, his efforts made NSF reviewers aware that
          the work had already been performed. The subject easily
                           page 9 of 10
          could have delayed making his results public in order to
          avoid detection. We believe that this would have been a
          more serious transgression if he had acted purposefully.
     Regarding allegation # 2 , we believe that a false signature is
an inherently serious matter.        In this case, we believe its
seriousness is mitigated by the fact that the signature did not and
was not intended to mislead NSF about the role the collaborator
would play in executing the research plan. We also believe that.
the fact that the subject brought this matter to NSF's attention
can be considered a mitigating circumstance.
     We recommend a finding of misconduct under NSF' s Regulation on
Misconduct in Science and Engineering. We recommend three actions
by NSF in response to the subject1s misconduct. The subject should
be sent a letter of reprimand, which is a Group I action (see
6 8 9 2 a (l)(i)). The subject should be required, for a period of
two years, when he submits research proposals to NSF, to certify to
OIG that the proposals accurately state what parts of the research
agenda have and have not already been performed. This is also a
Group I action (see S689.2 (a)(1)(ii)) . The subject's institution
should be required, for a period of two years, when the subject
submits research proposals to NSF, to certify that the proposals
accurately state what parts of the research agenda have and have
not already been performed. This is also a Group I action (see
6 82 a 1 ) i      ) .  We believe that these actions adequately
protect the integrity of NSF1s proposal review process while, at
the same time, permitting an inexperienced researcher to put this
incident of misconduct behind him and pursue his scientific career.




                          page 10 of 10
                             NATIONAL SClENCE FOLlNDATlON
                                  4201 WILSON BOULEVARD
                                 ARLINGTON. VIRGINIA 22230




    OFFICE OF THE
  D E P W DIRECTOR


                                   January 13,1995


Personal and Confidential




                      Re:    Notice of Misconduct Determination



The National Science Foundation's Office of Inspector General (OIG) issued an
Investigation Report on September 30, 1994, in which it found that you (i) submitted a
proposal to the Foundation which misrepresented research you had already performed as
work you proposed to do, and (ii) directed that the name of your collaborator be signed
on the certification page without the collaborator's knowledge or consent.

Misconduct and Proposed Action

Under NSF's regulations, "misconduct" is defined to include any "serious deviation from
accepted practices in proposing, carrying out or reporting results from activities funded
by NSF." 45 CFR §689.1(a). Your submission of a proposal that misrepresents the
statuS of your research, and that included a falsified signature, constitutes a serious
deviation from accepted practices, and. therefore, misconduct.

In deciding what actions will be taken in response to a misconduct finding, NSF
considers the seriousness of the misconduct; whether it was deliberate or careless;
whether i t was an isolated event or part of a pattern; and whether the misconduct affects
only certain funding requests or has implications for any application for funding
involving the subject of the misconduct finding. See 45 CFR $689.2(b). In this case, I
believe that several factors mitigate the seriousness of y o u actions. The difference
between the research you intended NSF to support and the research you proposed to NSF
was not great; this was your first proposal for external fimding and you probably did not
realize the gravity of your actions; you took full responsibility for your actions; and there
is no evidence that your actions were part of a purposeful, coordinated deception.
                                                        /


Based on the above facts, we will require that if you are the principal investigator or co-
principal investigator on any proposal submitted to NSF prior to January 1, 1997, you
must submit to the Assistant inspector General for Oversight, Office of Inspector
General, National Science Foundation, 4201 Wilson Boulevard, Arlington, Virginia
22230, a copy of each such proposal, together with your separate written certification
indicating that the proposal accurately states which parts of the research agenda have and
have not been performed. In addition, you must submit a written certification from an
institutional representative, indicating that, to the best of his or her knowledge, the
proposal accurately states which parts of the research agenda have and have not been
performed. Both certifications must be provided simultaneously with the submittal of the
proposal to NSF; must be provided for any proposals pending at NSF on the date of this
                      ovided whether or not you continue to be employed a t l C g j l i )


Procedures G o v e m Appeals

Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 CFR $689.9(a). Any
appeal should be addressed to the Director at the National Science Foundation, 420 1
Wilson Boulevard, Arlington, Virginia 22230. For your information we are attaching a
copy of the applicable regulations and of OIG's investigation report. If you have any
questions about the foregoing, please call Lawrence Rudolph, Acting General Counsel, at
(703) 306-1 060.


                                               Sincerely,
                                                  /                 n




                                               ~ n n k ~ e t e r s e- n
                                               Deputy Director

Enclosures
